NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



                 OIG REPORT TO OMB ON THE
           NATIONAL CREDIT UNION ADMINISTRATION’S
                    COMPLIANCE WITH THE
               FEDERAL INFORMATION SECURITY
                     MANAGEMENT ACT
                            2008
             Report #OIG-08-07       September 24, 2008




                         William A. DeSarno
                          Inspector General


    Released by:                       Auditor-in-Charge:




    James Hagen                       W. Marvin Stith, CISA
    Asst IG for Audits                Sr Information Technology Auditor
               OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
             COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY M ANAGEMENT ACT - 2008
                                       Report #OIG-08-07


                                            CONTENTS




Section                                                                                Page

    I       EXECUTIVE SUMMARY                                                            1

    II      OFFICE OF MANAGEMENT & BUDGET REPORT FORMAT                                  2

Appendix
   A     Independent Evaluation of the NCUA Information Security Program – 2008

    B       NCUA Financial Statements Audit – FY2007


Appendix A is Audit Report OIG-08-08 dated September 24, 2008.

Section II and Appendix B are limited to restricted official use only.
             OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
           COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY M ANAGEMENT ACT - 2008
                                     Report #OIG-08-07

                             I. EXECUTIVE SUMMARY
The Office of Inspector General (OIG) for the National Credit Union Administration
(NCUA) engaged Grant Thornton LLP to independently evaluate its information systems
and security program and controls for compliance with the Federal Information Security
Management Act (FISMA), Title III of the E-Government Act of 2002.

Grant Thornton evaluated NCUA’s security program through interviews, documentation
reviews, technical configuration reviews, social engineering testing, and sample testing.
We evaluated NCUA against standards and requirements for federal government
agencies such as those provided through FISMA, National Institute of Standards and
Technology (NIST) Special Publications (SPs), and Office of Management and Budget
(OMB) memorandums. We conducted an exit conference with NCUA on July 23, 2008,
to discuss evaluation results.

The NCUA has worked to further strengthen its information technology (IT) security
program during Fiscal Year (FY) 2008. NCUA’s accomplishments during this period
include:

      Implementing OMB guidance in managing privacy and breach notifications.
      Ninety-seven percent of NCUA employees completed annual security awareness
      training.

We identified six areas remaining from last year’s FISMA evaluation that still need
improvement:

      NCUA has not adequately established segregation of duty controls for its
      applications.
      NCUA has not completed E-Authentication risk assessments for its systems.
      NCUA has not completed security controls testing for one of its FISMA systems.
      NCUA does not have a formal agency-wide security configuration guide.
      NCUA has not updated its employee enter/exit/change procedures.
      NCUA has not implemented continuing education requirements for its IT
      employees.

In addition, we identified four new findings this year where NCUA could improve IT
security controls:

      NCUA’s System Software Change Procedures needs improvement.
      NCUA vulnerability management needs improvement.
      NCUA lacks a comprehensive contingency planning program for its FISMA
      systems.
      NCUA’s Plans of Action and Milestones (POA&M) process needs improvement.

We appreciate the courtesies and cooperation provided to our auditors during this audit.



                                             1
